                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                       \




     Case Number: A-03110074                                                                   Page 1 of 1



          We received an allegation that a section of the subject's NSF proposal' contained text that was
          copied from a published paper (source do~ument).~     Our review showed that about a paragraph of
          text in the subject's proposal was substantially similar to text in the source document and the
          similar text had not been cited appropriately to the source document. The similar text presented
          details about an experimental procedure. Both the subject's proposal and the source document
          cited the experimental procedure to an earlier published source.

          We wrote to the subject who responded that the material had been copied. The subject explained
          that this was an innocent mistake, most likely because of the rush to get the proposal submitted.
          The subject pointed out that the source document was cited in the proposal, but not in the section
          with the substantially similar text. Further, the subject did cite the original published source for
          the experimental procedure described in the paragraph. Given that the amount of copied text
          involved is small and that the subject is a new young investigator, we determined that, although
          the subject's act was a departure from accepted practices, the act was not a significant departure,
          and hence, not research misconduct. We called the subject to discuss this matter. Subsequently,        ,


          we wrote to the subject emphasizing the need to review all work submitted and to ensure that all
          ideas and copied text are appropriately identified and attributed.

          This case is closed and no further action will be taken.




I'                                                                                                                   Ij
NSF OIG Form 2 ( 1 1102)
